                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




            PERFORMANCE AUDIT OF
       CORPORATION GRANTS AWARDED TO
     ATLANTIC HUMAN RESOURCES, INC. (AHR)

            OIG REPORT NUMBER 13-05A




                        Prepared by:

                 Castro & Company, LLC
            2121 Eisenhower Avenue, Suite 606
                Alexandria, Virginia 22314


This report was issued to Corporation management on May 9, 2013. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than November 12, 2013, and complete its corrective actions by May 9, 2014.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                   OfiH:C 01 InSpC(: lor Gcncral


                                 NATIOONAL&
                                 COMMUNITY
                                 SERVICE ................
                                          May 9,2013

TO:            Joseph Gaynor
               Executive Director, Atlantic Human Resources, Inc.

               Erwin Tan
               Director, Senior Corps

               Rocco Gaudio
               Deputy Chief Financial Officer for Grants and FFMC

FROM:         Stuart Axenfeld    ~ A0v~
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (OIG) Final Report 13-0SA: Performance Audit of
              Corporation Grants Awarded to Atlantic Human Resources, Inc. (AHR)

Attached is the OIG Final Report 13-0SA: Performance Audit of Corporation Grants Awarded to
Atlantic Human Resources, Inc. (AHR). The performance audit was conducted by Castro &
Company, LLC in accordance with standards established by the Government Auditing
Standards, issued by the Comptroller General of the United States.

Under the Corporation's audit resolution policy, a final management decision on the findings and
recommendations in this report is due by November 12, 2013. Notice of final action is due by
May 9,2014.

If you have questions pertaining to this report, please contact Stuart Axenfeld at (202) 606-9360
or S.Axenfeld@cncsoig.gov; or Thomas Chin, Audit Manager, at (202) 606-9362 or
T.Chin@cncsoig.gov.

Attachment

cc:   David Rebich, Chief Financial Officer
      Erin McGrath, Director, New Jersey State Program Office
      Rosemary DiRita, Grants Management Specialist, FFMC
      Angela Roberts, Associate Director, Senior Corps
      Claire Moreno, Audit Liaison, Office of Grants Management
      Thomas Castro, Partner, Castro & Company, LLC




                   1201 New York Avenue, NW  *          *
                                                Suite 830  Washington, DC 20525
                      202-606-9390 *                     *
                                     Hotline: 800-452-8210  www.cncsoig.gov
 

                                              2121 Eisenhower Ave.
                                              Suite 606
                                              Alexandria, VA 22314
                                              Phone: 703.229.4440
                                              Fax: 703.859.7603
                                              www.castroco.com




             OFFICE OF INSPECTOR GENERAL
                PERFORMANCE AUDIT FOR
    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE


                   GRANTS AWARDED TO
              ATLANTIC HUMAN RESOURCES, INC




                             
 
 


                                OFFICE OF INSPECTOR GENERAL
                                   PERFORMANCE AUDIT FOR
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     GRANTS AWARDED TO
                              ATLANTIC HUMAN RESOURCES, INC.

                                                      TABLE OF CONTENTS




Executive Summary ................................................................................................................ 1

Consolidated Schedule of Claimed and Questioned Costs .................................................... 1

Introduction..............................................................................................................................2

Findings .................................................................................................................................. 3

Objectives and Scope ........................................................................................................... 19

Background ........................................................................................................................... 20

Exit Conference .................................................................................................................... 20




Appendices

Appendix A – Schedule of Questioned Costs – FGP Grant 08SFANJ001

Appendix B – Schedule of Questioned Costs – RSVP Grant 08SRANJ009

Appendix C – Atlantic Human Resources, Inc. Response to Draft Report

Appendix D – Corporation for National and Community Service Response to Draft Report




                                                                        i
                                                                          
 
 


                                                                  EXECUTIVE SUMMARY

More than $1.4 million in costs claimed by Atlantic Human Resources, Inc. (AHR) under Senior
Corps grants during 2008-2011 were duplicative, unsubstantiated and/or incurred improperly, in
violation of applicable laws, regulations and grant provisions. These overcharges, which reflect
fundamental weaknesses in internal controls, represent 71 percent of the costs charged under
the grant. The audit revealed deficient financial management by AHR, including:

                                   Double-charging of travel expenses
                                   Inconsistencies between AHR’s internal records and its periodic financial
                                    reports to the Federal government
                                   Charges for meals that were not provided
                                   Direct charges for items that were already included in AHR’s negotiated
                                    indirect cost rate
                                   Misapplication of the indirect cost rates
                                   Failure to ensure income-eligibility for means-tested benefits, as well as other
                                    missing eligibility documentation
                                   Complete lack of basic documentation for the RSVP grant, including the
                                    names of volunteers and records of their activities.
               
The following table summarizes AHR’s grant awards, costs claimed and the questioned costs
identified by the audit.

                                  Consolidated Schedule of Claimed and Questioned Costs
                                                        Total Grant        Total       Questioned Costs
                                   Audit
         Grant                                           Funding           Costs                             Appendix1
                                   Period                                              Federal    Match
                                                                          Claimed
       Foster
    Grandparent
      Program                  09/30/2008
       Grant                       to
    08SFANJ001                 09/29/2011               $1,993,6672      $1,788,0582   $639,580   $428,232      A

     Retired and
       Senior
      Volunteer
      Program                  07/01/2008
       Grant                       to
    08SRANJ009                 06/30/2011                      237,698      237,698    $228,776   $139,618      B

                                        Totals           $2,231,365      $2,025,756    $868,356   $567,850


                                               TOTAL QUESTIONED COSTS                      $1,436,206

                                                            
1
    Separate schedules detailing the questioned costs are presented in Appendices A and B.
2
   Although this grant is closed, the difference of $205,609 has not been de-obligated by the Corporation pending
completion of this audit and resolution of its findings and recommendations. 

                                                                              1
 
 


Overall, the grantee’s financial management practices were inadequate to manage Federal
funds. The grantee could not provide records to support the majority of the costs that it claimed
for volunteer meals, travel, and salaries and fringe benefit transactions. In many cases, its
charges against the grant were based on estimates and projections, without any evidence of
expenses actually incurred. Its indirect cost methodology was flawed and resulted in duplicative
charges.

To communicate the severity of these findings while the fieldwork was in progress, OIG
presented a Management Alert Briefing to Senior Corps management and the Corporation for
National and Community Service’s (Corporation’s) New Jersey State Office officials on
November 15, 2012. OIG highlighted the questioned costs identified to that date, discussed the
past monitoring activities conducted by the Corporation, and presented a recommendation for
placing both of AHR’s grants on “manual holds” to afford the Corporation more control over
AHR’s drawdown of additional funds. The New Jersey State Office Director responded that the
RSVP grant was already on a “manual hold” until AHR significantly improved its grant
performance, and that a similar hold for the FGP grant would also be considered. The
Corporation deferred its response until after it received the final report, the auditor’s working
papers and it completes the audit resolution process with AHR.

This audit was conducted at the request of the Corporation for National and Community Service.
The Corporation’s Office of Inspector General (OIG) engaged Castro & Company, LLC (Castro)
to audit the costs incurred by AHR under grants from FGP and RSVP during a three-year
period, in order to determine whether Corporation grants to AHR were administered according
to grant terms and complied with all Federal laws and regulations.

The audit procedures were conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. The objectives of the audit were to
determine whether Corporation-funded Federal assistance provided to AHR was expended in
accordance with grant terms and provisions and laws and regulations, and to report upon such
compliance, controls, and questioned costs that may result from performing these audit
procedures. The procedures included obtaining an understanding of AHR and its policies,
procedures, and grants. They also included reviewing documents at AHR related to volunteer
eligibility, claimed costs, matching costs, and compliance with laws, regulations, and the terms
of grant agreements.

                                       INTRODUCTION

Atlantic Human Resources, Inc., a private non-profit organization, was established in Atlantic
City, New Jersey in 1964. Its mission is to engage children, youth, and families through
community-based learning opportunities. Its core programs include Head Start, an education
program for pre-school children from low-income families, funded by the U.S. Department of
Health and Human Services. It is a longstanding grantee of the Corporation’s Senior Corps (at
least 15 years), with activities funded through the Foster Grandparent Program (FGP) and
Retired and Senior Volunteer Program (RSVP).



                                               2
 
 


FGP supports grants that enable individuals age 55 and over to provide mentoring and support
services to children who are academically, socially or financially disadvantaged. These services
include one-on-one tutoring, and acting as advocates for youngsters in the child welfare system.
FGP participants typically serve between 15 and 40 hours per week, and income-eligible
volunteers may receive an hourly stipend of $2.65. During the period under audit, AHR had an
average of 195 volunteers per year serving in FGP.

RSVP grants support programs through which volunteers age 55 and over provide a broad
range of services to meet community needs. Examples include delivering meals to homebound
seniors, conducting school safety patrols, providing supportive services at disaster relief sites,
tutoring children and assisting at food banks. RSVP does not provide financial stipends to
volunteers. The New Jersey State Office Director estimated that 230 volunteers currently serve
in AHR’s RSVP program.

In July 2012, the Corporation requested that the OIG undertake an audit of AHR’s
administration of Corporation grants, with a particular focus on its financial operations, as a
result of a monitoring visit conducted by the New Jersey State Office. The monitoring visit was
prompted in part by the resignation of the grantee’s RSVP Director earlier in the year, leaving
that key position vacant for a period of approximately nine months. Furthermore, the monitoring
visit revealed that AHR was charging various general operating expenses to the Corporation
grants both directly and through its indirect rate agreement.


                                                               FINDINGS

Our audit uncovered numerous violations of applicable grant terms, rules and regulations, many
of which resulted in overcharges. Our findings fall into four basic categories:

             Finding No. 1 – AHR’s Financial Management Reflects Pervasive Violation of Federal
              Grant Management Requirements

             Finding No. 2 – AHR Failed to Ensure that Volunteers Met Eligibility Requirements,
              Including for the Receipt of Stipends

             Finding No. 3 – Required Background Checks Were Not Conducted on AHR Staff

             Finding No. 4 – Federal Financial Reports Were Not Submitted Timely

We discuss them in turn, highlighting the questioned costs3 associated with each finding.

Finding No. 1 – AHR’s Financial Management Reflects Pervasive Violation of Federal
Grant Management Requirements


                                                            
3
  A questioned cost is: (1) an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds; (2) a finding that at the time of
testing, such costs were not supported by adequate documentation; or (3) a finding that the expenditure of funds for
the intended purpose was unnecessary or unreasonable.

                                                                  3
 
 


Throughout the three-year grant period which began in 2008, AHR failed to comply with grant
agreement terms and Federal rules and regulations that require proper accountability for grant
funds. The grantee charged against the grant based on estimates and projections, did not
document the actual costs of volunteer meals and travel, and miscalculated indirect costs. A
portion of salaries and fringe benefits were not documented due to missing staff timesheets. In
some instances, AHR charged twice for the same expenses. In addition, Federal Financial
Reports4 (FFR) submitted to the Corporation for both grants during the same period were not
reconciled to the AHR accounting system. The result was that the accounting system reported
amounts that were less than amounts reported on the FFRs. Timely reconciliations would have
detected this situation.

The table below shows the amount of the questioned costs in our tested sample of transactions,
for each category, in each of the programs5:

                                 FGP                            RSVP
      Issues
                        Federal      Match              Federal      Match
                                                                                        Total          Notes
Detail Transaction     Questioned Questioned           Questioned Questioned
                                                                                      Questioned
    Testing and          Costs       Costs               Costs       Costs
                                                                                        Costs
  Reconciliation
    Differences
 Volunteer Meals         $         -      $267,868        $     -       $        -        $267,868        1
 Volunteer Travel            127,087       110,082            698            1,252         239,119        2
 Indirect Costs               11,343             -          7,904                -          19,247        3
 Indirect Costs               97,524         2,979         16,910           23,620         141,033        4
 Salaries and                  4,320             -              -                -           4,320        5
 Fringe Benefits
 Differences
 Between FFRs and                  -         47,303             -        114,746           162,049        6
 General Ledger

      Totals             $240,274         $428,232        $25,512      $139,618           $833,636

NOTES:

1.       Volunteer Meals. AHR could not provide evidence to support the in-kind match costs
that it claimed for volunteer meals in its FGP program. Instead, the in-kind contributions reflect
mere assumptions and estimates, which does not comply with 45 CFR §2543.23(a), Cost
sharing or matching.

When volunteering at a public school, FGP participants were entitled to lunch provided by the
school. AHR treated these lunches as part of its obligation to match Federal grant funds with
funds from other sources. AHR valued this in-kind contribution by multiplying the number of
service days (i.e., the number of days each volunteer was in active service) during the quarter
times a rate of $4.00, which it treated as the value of the meal. Although in-kind contributions
                                                            
4
 The FFR is a standardized, consolidated report of Federal grant awards and associated Federal share and match
costs claimed which are required to be reported by grantees to the Corporation on a semi-annual basis.
5
 For ease of reference, separate schedules recapping this information for FGP (Appendix A) and RSVP (Appendix
B) appear at the end of this report.

                                                      4
 
 


must be valued at market rates or otherwise independently substantiated, as required by 26
CFR §1.170-1(a)(3)(ii)(e) [see the Criteria section on page 9], AHR can neither explain nor
substantiate the basis for valuing each meal at $4.00. In fact, certain schools did not provide
meals at all, and others ceased providing meals at varying times during the audit period.
Further, AHR made no effort to track whether volunteers at the remaining stations always
received meals. In short, AHR claimed match costs for certain meals that were never provided,
has no contemporaneous evidence that other meals were in fact received, and has arbitrarily
valued each meal at $4.00 without any evidence to support that valuation.

We noted that the practice of claiming match costs based on the assumption that every
volunteer received a meal worth $4.00 on each service day was in place at the beginning of the
audit period. The current FGP director, who began her employment with AHR in 2012, did not
know when the practice began. Given that three years’ worth of unsupported volunteer meal
costs totaled more than $250,000, a review of similar transactions in prior periods could result in
the disallowance of substantial additional costs.

2.      Volunteer Travel. Substantial volunteer travel costs for both grants, which AHR records
as both Federal and match costs, are questioned for two distinct reasons. First, the procedure
used to calculate the reimbursable expenses is based on a cost estimate not supported by
documentation that explains the computation method. Second, travel costs were charged to the
grants twice. Our review of the detailed transactions, and questions posed to AHR accounting
department staff and the FGP director, confirmed the above conclusions and the fact that both
grants were affected by the same problems.

At the beginning of their service, volunteers in both programs were required to select and report
to AHR the method of transportation (i.e., bus, personal car, etc.) they planned to use to
commute to their respective volunteer stations. Based on their chosen method, AHR
determined how much to reimburse each volunteer for his/her commute. On a quarterly basis,
AHR multiplied each volunteer’s service days by the predetermined daily rate, and booked the
resulting amount as match costs. AHR did not confirm that volunteers were in fact incurring the
estimated costs and could produce no documentation to explain how it arrived at the daily rates;
therefore, we question all volunteer travel costs reported as match.

Independent of documentation issues, AHR also charged twice for the same commuting costs.
In addition to treating them as match costs on a quarterly basis, it also booked them on a
monthly basis. Every month, AHR determined from its payroll records the total paid for
volunteer travel, and recorded 82 percent of it as Federal costs and the remaining 18 percent as
match costs. The monthly amount recorded in the payroll records is a duplication of the costs
reported as match on a quarterly basis, discussed in the previous paragraph; therefore, AHR
claimed and reported the same volunteer travel costs twice. For this independent reason, we
question all volunteer travel costs reported as both Federal and match costs. In discussions
with the auditors, the FGP director conceded that AHR had double-billed these costs, and
stated that the same method was used by her predecessor. Both program and accounting



                                                5
 
 


personnel should ensure that the correct calculation method is used for travel costs, and that
such costs are properly documented before general ledger entries are processed.

Moreover, the manner in which AHR accounted for both travel and meals reflects a material
internal control weakness. By their own admission, accounting personnel, in reliance on
directions from the previous FGP director, input transactions into the accounting system without
supporting documentation or other basis.

3.     Indirect Costs Rate. We questioned $19,247 of indirect costs ($11,343 for FGP;
$7,904 for RSVP) based on duplication of charges revealed by our detailed transaction testing;
and (b) failure to apply the indirect cost rate correctly. We determined that AHR’s indirect cost
rate was multiplied by the salaries charged to the grant on a monthly basis to determine the
amount of indirect costs to charge to the grant. However, in one month, AHR erroneously
charged the full month’s salary to the grant, rather than the fractional share of salaries that
would have resulted from applying the indirect cost rate. This overcharged the grant by $6,913.
Furthermore, AHR did not provide any documentation to support two monthly indirect cost
transactions, totaling $4,430 of Federal costs for the FGP grant, and one monthly indirect cost
transaction, totaling $7,904 of Federal costs, for the RSVP grant. AHR accounting personnel
acknowledged these errors.

4.    Indirect Costs. We questioned indirect costs totaling $141,033 ($114,434 Federal plus
$26,599 match) due to various general operating costs AHR charged directly to the grants
which were already included in its indirect cost rate. The following table shows the costs that
were double-charged.

                                                FGP                    RSVP
                Type of Costs            Federal      Match      Federal   Match
                                          Costs       Costs       Costs    Costs
           Janitorial Services           $ 1,329      $     -    $ 300    $      -
           Office Rent                     25,521       2,800      8,152    22,620
           Office Equipment Leases          2,112           -        170         -
           Office Supplies                  7,524           -      2,113         -
           Telephone                       18,903         179        410     1,000
           Advertising                      2,609           -         65         -
           Life Insurance - Employer        1,779           -        195         -
           Liability Insurance              8,019           -      5,383         -
           Payroll Processing Fees         25,578           -        122         -
           Utilities                           73           -          -         -
           Postage                          3,254           -          -         -
           Exterminator                       823           -          -         -
                       Totals             $97,524     $2,979     $16,910  $23,620

AHR stated that the practice of charging indirect costs through the indirect cost rate, as well as
directly charging to the grant, had been in effect for years. According to AHR, because this
practice had not been identified as problematic in prior audits conducted by private auditing



                                                6
 
 


firms under the Single Audit Act, AHR was unaware that it was in fact double-charging the
grant.6

When the Corporation’s New Jersey Program office questioned this dual-charging practice
during its March 2012 site visit, AHR ceased charging the FGP and RSVP grants for any
indirect costs.

5.       Salaries and Fringe Benefits. We have questioned salaries and fringe benefit costs
due to the lack of employee timesheets, and the improper allocation of payroll taxes to the FGP
and RSVP grants. We selected the months of November 2008 and January 2011 for FGP, and
the month of October 2009 for RSVP to review salaries and fringe benefit costs. AHR could not
provide timesheets to support the two employees charging the FGP grant during January 2011,
resulting in unsupported salary costs of $3,512, and $497 for the related payroll taxes. In
addition, AHR calculated payroll taxes for the two employees as a percentage of total salaries
for all AHR employees. Instead, the correct method is to calculate the taxes as a percentage of
the proportional hours the employees actually worked on the FGP grant. The erroneous
calculation method resulted in an overcharge of $311 to the FGP grant, and an immaterial
amount to the RSVP grant.

Accounting personnel stated that the pay period for which timesheets were not available
occurred in the period right before AHR transitioned to electronic timesheets. They believe that
either manual timesheets were no longer being completed or the timesheets were misplaced.

6.      Reconciliation Differences. We questioned match costs of $47,303 on the FGP grant,
and $114,746 on the RSVP grant, based on reconciliation differences between FFRs and the
AHR general ledger. In both cases, the claimed match costs reported on its FFRs exceeded the
amounts shown in AHR’s accounting records, for which no explanatory documentation could be
found. These unreconciled differences represent a further internal control weakness in AHR’s
financial management recordkeeping and transaction processing procedures.


Criteria

45 CFR §2543, Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations, .21(b) states:

       “Recipients' financial management systems shall provide for the following:



                                                            
6
  AHR’s indirect costs were specified in a Negotiated Indirect Cost Rate Agreement (NICRA), an individually
negotiated agreement between a grantee and the Federal agency that is its largest source of funding (in AHR’s case,
the Department of Health and Human Services) as to the rates or dollar amounts the grantee may claim for indirect
costs against its grants. Indirect costs are those proportional expenses that cannot be attributed to the operation of a
specific grant, but may be generally allocated to overall operations.

 

                                                               7
 
 


       (1) Accurate, current and complete disclosure of the financial results of each federally-
           sponsored project or program in accordance with the reporting requirements set forth
           in § 2543.51. If a Federal awarding agency requires reporting on an accrual basis
           from a recipient that maintains its records on other than an accrual basis, the
           recipient shall not be required to establish an accrual accounting system. These
           recipients may develop such accrual data for its reports on the basis of an analysis of
           the documentation on hand.

       (2) Records that identify adequately the source and application of funds for federally-
           sponsored activities. These records shall contain information pertaining to Federal
           awards, authorizations, obligations, unobligated balances, assets, outlays, income
           and interest.
       (3) Effective control over and accountability for all funds, property and other assets.
           Recipients shall adequately safeguard all such assets and assure they are used
           solely for authorized purposes.
       (6) Written procedures for determining the reasonableness, allocability and allowability
           of costs in accordance with the provisions of the applicable Federal cost principles
           and the terms and conditions of the award.
       (7) Accounting records including cost accounting records that are supported by source
           documentation.”

45 CFR §2543.23(a), Cost sharing or matching, states:

    “All contributions, including cash and third party in-kind, shall be accepted as part of the
    recipient's cost sharing or matching when such contributions meet all of the following
    criteria:

       (1) Are verifiable from the recipient's records...”

45 CFR §2543.27, Allowable costs, states:

     “For each kind of recipient, there is a set of Federal principles for determining allowable
    costs. Allowability of costs shall be determined in accordance with the cost principles
    applicable to the entity incurring the costs… The allowability of costs incurred by non-profit
    organizations is determined in accordance with the provisions of OMB Circular A-122, “Cost
    Principles for Non-Profit Organizations.” The allowability of costs incurred by commercial
    organizations and those non-profit organizations listed in Attachment C to Circular A-122 is
    determined in accordance with the provisions of the Federal Acquisition Regulation (FAR) at
    48 CFR part 31.”

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A:             General
Principles, C. Indirect Costs states:

    “1. Indirect costs are those that have been incurred for common or joint objectives and
    cannot be readily identified with a particular final cost objective. Direct cost of minor amounts
    may be treated as indirect costs under the conditions described in subparagraph B.2. After

                                                  8
 
 


    direct costs have been determined and assigned directly to awards or other work as
    appropriate, indirect costs are those remaining to be allocated to benefiting cost objectives.
    A cost may not be allocated to an award as an indirect cost if any other cost incurred for the
    same purpose, in like circumstances, has been assigned to an award as a direct cost.”

26 CFR §1.170-1, Charitable, etc., contributions and gifts; allowance of deduction

    (a)(3)(ii)(e) The fair market value of the property at the time the contribution was made,
    showing the method utilized in determining the fair market value.

Foster Grandparents Program Terms and Conditions, Financial Status Reports (now renamed
Federal Financial Reports)

    FSRs must report expenses on a cumulative basis over the performance period of the grant
    and be submitted according to the following schedule...Programs completing the final year
    of their grant must submit a final FSR that is cumulative over the entire grant period.


Recommendations:

We recommend that the Corporation:

    1a. Disallow and recover the questioned costs totaling $833,636;
    1b. Ensure AHR accounting personnel attend fiscal training to enhance their knowledge of
        grant accounting operations and their related internal controls, including the
        requirements associated with maintaining an accounting system as a recipient of
        Federal grant funds;
    1c. Ensure AHR implements procedures to verify that all costs are adequately documented
        before entering any costs into its accounting system;
    1d. Ensure AHR conducts training for the specific grantee staff who have responsibility for
        documenting grant costs to confirm they completely understand the documentation
        requirements;
    1e. Ensure AHR performs timely reconciliations of its general ledger to the FFRs and
        drawdowns, and that supervisory reviews of the reconciliations are conducted
        periodically; and
    1f. Withhold additional drawdowns and require supporting documentation prior to any
        further grant reimbursements.

AHR’s Response

The Executive Director (ED) and Chief Financial Officer (CFO) provided the following responses
for each of the areas discussed within this finding:

1.     Volunteer Meals. The ED stated that FGP participants were assigned to programs that
provided meals funded by the Child Care and Adult Feeding Programs and provided
documentation showing the rates associated with the meals for the effective dates from July 1,

                                                9
 
 


2012 through June 30, 2013. The supporting documentation for these volunteer meals was a
signed document that indicated hours worked, and meals and travel incurred. The ED stated
that his knowledge was limited to the fact that the Atlantic City Board of Education ceased meal
service to volunteers and limited its cash contribution to $10,000.

The CFO stated that the fiscal department did not have oversight over program-related matters,
and vouchers submitted were paid upon the request of the Program Directors.

2.      Volunteer Travel. The ED stated that upon the beginning of volunteer service,
volunteers were required to select and report to AHR their method of transportation to the
Volunteer Stations. The volunteers and Program Directors/Site Managers signed a document,
which identified hours worked, meal consumed, and travel time, before submitting the document
to Fiscal Department for payments.

The CFO stated that the travel expenses were not duplicated and AHR’s account chart
differentiated between Federal travel and grantee travel match.

3.      Indirect Cost Rate. The CFO stated that in a few instances, indirect cost rates for
previous years were inadvertently used instead of the prevailing rate; however, the adjustment
was made at year end. The ED stated that the A-133 audit did not substantiate the issues for
the periods noted in this report, while adjustments were made as mentioned by the CFO.

4.     Indirect Cost. The ED stated that issues noted in this report were not substantiated in
the A-133 audit. The CFO stated the Corporation approved both direct and indirect costs;
however, AHR currently only charges direct costs for the FGP and indirect costs for the RSVP.

5.     Salaries and Fringe Benefits. The ED stated that the finding was not identified in the
previous A-133 audits.

6.     Reconciliation Differences. The ED stated that the finding was not identified in the
previous A-133 audits.

Auditor’s Comments

We disagree with the ED’s and CFO’s response to the issues noted within this finding.

1.      Volunteer Meals. The ED’s response did not adequately address either the value of the
volunteer meals or whether all of the meals claimed as match costs were actually received by
volunteers. The Child and Adult Food Program rate sheet offered in AHR’s response related to
a period outside the audit. Neither during our fieldwork nor with the AHR response did the
grantee furnish any documentation to show that volunteers actually received the meals that
AHR charged against the grant. In particular, contrary to the ED’s assertion, the timesheets we
reviewed during fieldwork only showed the time and work assignment completed by the
volunteers and contained no reference to meals. Though the ED acknowledged only that the
Atlantic City Board of Education ceased providing meals to volunteers, staff members told the
auditors that the same was true of other volunteer stations; AHR did not provide documentation
to the auditors during fieldwork or with its response to substantiate that the volunteers at any of
the volunteer stations received any meals.

Though the CFO takes the position that the accounting department is not responsible for
oversight over program-related matters, it is the accounting department’s responsibility to

                                                10
 
 


ensure that all costs reported within the accounting system, including meals claimed as match
costs, are properly substantiated.

2.     Volunteer Travel. Similar to the response above regarding volunteer meals, the ED
referenced a “signed document” (timesheet) that substantiated volunteer travel. However, the
timesheets we reviewed during our audit fieldwork showed only the time that volunteers
reported and the work assignment completed for the day and did not indicate how the volunteer
reached the service site or incurred expenses to do so. No additional support was provided with
the AHR response.

The CFO asserted that travel expenses were not duplicated due to the separate tracking of the
Federal and match travel costs. However, the CFO did not refute the documentation we
reviewed and our discussion with the FGP Program Director during fieldwork, which supported
the finding.

3.      Indirect Cost Rate. The CFO conceded AHR used incorrect indirect cost rates from
previous years and adjustments were made at year end. This confirmed the validity of our
finding that AHR applied incorrect indirect cost rate.

4.      Indirect Cost. The CFO’s response regarding the Corporation’s approval to charge
both direct and indirect costs did not address the issue of inappropriate charging. The fact that
AHR was allowed to charge both direct and indirect costs did not authorize it to charge twice for
the same items. AHR was responsible for properly charging costs to the grants without regard
to whether AHR’s auditors discovered the erroneous charges.

5.      Salaries and Fringe Benefits. The ED’s response that this issue was not identified by
the AHR’s independent auditors did not negate the AHR’s responsibility for properly charging
costs to the grants in accordance with the requirements.

6.     Reconciliation Differences. The failure of AHR’s independent auditors to discover the
erroneous charges does not relieve AHR of responsibility for them.

The auditors reiterate our recommendation to disallow and recover the questioned costs and
that the Corporation ensures AHR strengthen its internal controls as reported in
recommendations 1b through 1f.


Finding No. 2 – AHR Failed to Ensure that Volunteers Met Eligibility Requirements,
Including for the Receipt of Stipends

AHR failed to conduct critical background checks on its volunteers, maintain essential
documentation and, in the case of the FGP, ensure that volunteers were eligible to receive
means-tested benefits. For the last reason, we question the $135,741 in Federal costs that
were charged to the FGP grant for the stipends paid to volunteers. The other deficiencies
constitute failures to comply with grant agreement terms and applicable laws and regulations.




                                               11
 
 


FGP

FGP is a means-tested program in which participants who fall below an income threshold tied to
the poverty level are entitled to a stipend of $2.65 per service hour. AHR had 585 volunteers for
the three budget years in our audit scope, of which we reviewed the files of thirty (30) volunteers
who received stipend payments from the FGP grant. In fourteen (14) of these cases, AHR
could not demonstrate that it had verified the income of these participants or that they were in
fact eligible to enroll in the program and receive the payments. AHR paid a total of $135,741 to
these individuals without ensuring their eligibility.

To protect members of the public served by Senior Corps volunteers, FGP grantees are
required to undergo State Criminal Registry Searches and National Sex Offender Public
Registry (NSOPR) checks. For 24 of the 30 volunteers in our sample, there were no records in
their files to demonstrate that this important safety requirement was met.

We discovered additional deficiencies in the volunteers’ files:

       Fourteen (14) volunteer files did not have income verification documentation, and 13 of
        these also did not have evidence of background checks.
       Eighteen (18) files did not have a photo ID documenting the individual’s birth date,
        although participation in FGP is limited to individuals aged 55 and older.
       Seventeen (17) files did not have documentation of completion of a physical
        examination.
       Seven (7) files did not contain the volunteer’s written acknowledgement of program rules
        and agreement to comply.
       Twenty-eight (28) files did not include evidence of the volunteers’ written assignment
        plans being completed by the respective volunteer stations.

Based on the above exceptions, we have questioned stipends totaling $135,741, paid to the 30
volunteers we tested who served during the audit period. The total amount of stipends paid by
AHR during the audit period was $1,099,229. The high incidence of improper payments in our
sample suggests that a substantial percentage of these unaudited payments may be
questionable.

AHR asserted that it conducted all of the necessary eligibility verifications and maintained the
necessary documentation, but could not explain the absence of the documentation from the
files.

RSVP

AHR could produce no records, either electronic or physical, to demonstrate that it conducted
the required criminal history and sex offender background checks. Specifically, we did not
receive a listing of the volunteers for each budget year, or any of the volunteer files. We
therefore have no evidence to verify that volunteers serving in the RSVP program met the basic
eligibility requirements.

                                                12
 
 



AHR attributed its inability to locate any volunteer files to the resignation of the individual who
directed its RSVP program during the period under audit.

Criteria

45 CFR §2552.41(a), Who is eligible to be a Foster Grandparent?, states:

    “To be a Foster Grandparent an individual must:

       (1) Be 60 years of age or older; (OIG Note: Age is 55 as of October 1, 2009)
       (2) Be determined by a physical examination to be capable, with or without reasonable
           accommodation, of serving children with exceptional or special needs without
           detriment to either himself/herself or the children served;
       (3) Agree to abide by all requirements as set forth in this part; and
       (4) In order to receive a stipend, have an income that is within the income eligibility
           guidelines specified in this subpart D.”

45 CFR §2552.43, What income guidelines govern eligibility to serve as a stipended Foster
Grandparent?, states:

    “(a) To be enrolled and receive a stipend, a Foster Grandparent cannot have an annual
         income from all sources, after deducting allowable medical expenses, which exceeds the
         program's income eligibility guideline for the state in which he or she resides. The
         income eligibility guideline for each state is the higher amount of either:


       (1) 125 percent of the poverty line as set forth in 42 U.S.C. 9902 (2); or


       (2) 135 percent of the poverty line, in those primary metropolitan statistical areas
           (PMSA), metropolitan statistical areas (MSA) and non-metropolitan counties
           identified by the Corporation as being higher in cost of living, as determined by
           application of the Volunteers in Service to America (VISTA) subsistence rates. In
           Alaska the guideline may be waived by the Corporation State Director if a project
           demonstrates that low-income individuals in that location are participating in the
           project.

    (b) For applicants to become stipended Foster Grandparents, annual income is projected for
        the following 12 months, based on income at the time of application. For serving
        stipended Foster Grandparents, annual income is counted for the past 12 months.
        Annual income includes the applicant or enrollee's income and that of his/her spouse, if
        the spouse lives in the same residence. Sponsors shall count the value of shelter, food,
        and clothing, if provided at no cost by persons related to the applicant, enrollee, or
        spouse.



                                                13
 
 


    (c) Allowable medical expenses are annual out-of-pocket medical expenses for health
        insurance premiums, health care services, and medications provided to the applicant,
        enrollee, or spouse which were not and will not be paid by Medicare, Medicaid, other
        insurance, or other third party pay or, and which do not exceed 50 percent of the
        applicable income guideline.

    (d) Applicants whose income is not more than 100 percent of the poverty line shall be given
        special consideration for enrollment.

    (e) Once enrolled, a Foster Grandparent shall remain eligible to serve and to receive a
        stipend so long as his or her income, does not exceed the applicable income eligibility
        guideline by 20 percent.”

45 CFR §2552.44, What is considered income for determining volunteer eligibility?, states:

    “(a) For determining eligibility, “income” refers to total cash and in-kind receipts before taxes
         from all sources including:

       (1) Money, wages, and salaries before any deduction, but not including food or rent in
           lieu of wages;
       (2) Receipts from self-employment or from a farm or business after deductions for
           business or farm expenses;
       (3) Regular payments for public assistance, Social Security, Unemployment or Workers
           Compensation, strike benefits, training stipends, alimony, child support, and military
           family allotments, or other regular support from an absent family member or
           someone not living in the household;
       (4) Government employee pensions, private pensions, and regular insurance or annuity
           payments; and
       (5) Income from dividends, interest, net rents, royalties, or income from estates and
           trusts.

    (b) For eligibility purposes, income does not refer to the following money receipts:

       (1) Any assets drawn down as withdrawals from a bank, sale of property, house or car,
           tax refunds, gifts, one-time insurance payments or compensation from injury.
       (2) Non-cash income, such as the bonus value of food and fuel produced and consumed
           on farms and the imputed value of rent from owner-occupied farm or non-farm
           housing.”

45 CFR §2552.42, May an individual who is subject to a State sex offender registration
requirement serve as a Foster Grandparent or as a Foster Grandparent grant-funded
employee?, states:




                                                 14
 
 


    “Any individual who is registered, or required to be registered, on a State sex offender
    registry is deemed unsuitable for, and may not serve in, a position as a Foster Grandparent
    or as a Foster Grandparent grant-funded employee.”

45 CFR §2552.72, Is a written volunteer assignment plan required for each volunteer?, states:

    “(a) All Foster Grandparents shall receive a written volunteer assignment plan developed by
         the volunteer station that:

       (1) Is approved by the sponsor and accepted by the Foster Grandparent;
       (2) Identifies the individual child(ren) to be served;
       (3) Identifies the role and activities of the Foster Grandparent and expected outcomes
           for the child;
       (4) Addresses the period of time each child should receive such services; and
       (5) Is used to review the status of the Foster Grandparent's services in working with the
           assigned child, as well as the impact of the assignment on the child's development.

    (b) If there is an existing plan that incorporates paragraphs (a)(2), (3), and (4) of this
        section, that plan shall meet the requirement.”

45 CFR §2553.41, Who is eligible to be a RSVP volunteer?, states:

    “(a) To be an RSVP volunteer, an individual must:

       (1)   Be 55 years of age or older;
       (2)   Agree to serve without compensation;
       (3)   Reside in or nearby the community served by RSVP;
       (4)   Agree to abide by all requirements as set forth in this part.”

45 CFR §2553.25, What are a sponsor's administrative responsibilities?, states:

    “A sponsor shall:

       (g) Establish record keeping and reporting systems in compliance with Corporation
           requirements that ensure quality of program and fiscal operations, facilitate timely
           and accurate submission of required reports and cooperate with Corporation
           evaluation and data collection efforts.”

45 CFR §2553.62, What are the responsibilities of a volunteer station?, states:

    “A volunteer station shall undertake the following responsibilities in support of RSVP
    volunteers:

       (a) Develop volunteer assignments that impact critical human and social needs, and
           regularly assess those assignments for continued appropriateness;”



                                                  15
 
 


Recommendations:

We recommend that the Corporation:

    2a. Disallow and recover the questioned costs totaling $135,741;

    2b. Ensure that AHR staff attends training associated with the volunteer eligibility
        requirements, and the proper way to maintain volunteer file documentation to ensure its
        compliance with these requirements, particularly when personnel changes (terminations,
        new hires) occur; and

    2c. Require AHR to develop and implement procedures to ensure that volunteer eligibility
        requirements are met and proper documentation is maintained.

AHR’s Response

Again, the ED cited the failure of AHR’s independent auditors to discover the numerous FGP
deficiencies. He noted also that Corporation program staff likewise did not identify them during
their reviews. Upon the resignation of the program director in June 2011 and additional reviews
conducted by the Corporation program staff, findings were noted but corrective actions were
slow to be implemented. AHR currently conducts a file review of all active participants to ensure
the files contain all required eligibility documentation.

The ED conceded that AHR could not produce records to demonstrate that it conducted criminal
background checks, and was not able to locate RSVP volunteer documentation. AHR has since
hired a new Project Director who was assigned to completely reorganize the RSVP by
identifying the volunteers and volunteer stations, as well as locating and reviewing volunteer
files.

Auditor’s Comment

Though AHR is currently conducting reviews of its volunteer files, it did not address the internal
controls and training plans that need to be implemented to ensure the volunteer files are
properly maintained. Therefore, we reiterate our recommendations 2a through 2c.

Finding No. 3 – Required Background Checks Were Not Conducted on AHR Staff

AHR was unable to demonstrate that it conducted National Service Criminal History or NSOPR
checks for its FGP and RSVP employees, resulting in questioned Federal costs of $263,565
charged to the FGP grant, and $203,264 charged to the RSVP grant, for the salaries and fringe
benefits associated with these employees. These questioned Federal costs were associated
with two (2) of the three (3) FGP employees, and both of the RSVP employees.

AHR’s Executive Director stated that all FGP and RSVP personnel have a criminal history check
performed; however, applicable rules and regulations expressly require not only that the checks
be performed but also that the grantee maintains the original documentation of the results.




                                               16
 
 


Criteria

45 CFR §2552.42, May an individual who is subject to a State sex offender registration
requirement serve as a Foster Grandparent or as a Foster Grandparent grant-funded
employee?, states,

    “Any individual who is registered, or required to be registered, on a State sex offender
    registry is deemed unsuitable for, and may not serve in, a position as a Foster Grandparent
    or as a Foster Grandparent grant-funded employee.”

Recommendations:

We recommend that the Corporation:

    3a. Disallow and recover the questioned costs totaling $466,829;

    3b. Ensure that AHR staff attends training associated with the grant requirements and the
        proper way to document its compliance with these requirements; and

    3c. Require AHR to develop and implement procedures to ensure that grant requirements
        associated with the National Service Criminal History and NSOPR Checks for
        employees are met and documented.

AHR’s Response

The ED stated that the original background checks files of former AHR staff may have been
misplaced but now all AHR staff have their background checks on file. Since AHR did not find
any negative findings with background checks, it requested that the questioned costs of
$466,829 be allowed.

Auditor’s Comment

Although AHR conducted background checks for its employees subsequent to our reporting of
the issues; these background checks were not conducted timely. Also, AHR did not address the
internal controls that need to be implemented to ensure the background checks are performed
and documented. Therefore, we reiterate our recommendations that the Corporation disallow
and recover the questioned costs and to ensure AHR strengthen its controls of employee
background checks as recommended in 3b and 3c.


Finding No. 4 - Federal Financial Reports Were Not Submitted Timely

AHR is required to prepare and submit a Federal Financial Report (FFR) to the Corporation on a
semi-annual basis. This document is a standardized, consolidated Federal cash and
expenditure report showing the amount of grant funds awarded to AHR, and the costs, both
Federal share and match share, claimed by the grantee against those funds. During our testing
of FFRs prepared by AHR for both the FGP and RSVP grants, we found that the following
reports were submitted late:

       Five (5) of the six (6) FGP grant FFRs were submitted significantly late, ranging from 26
        days to 756 days past due.

                                               17
 
 



       Two (2) of the six (6) RSVP grant FFRs were submitted significantly late, with one being
        94 days past due and the other 154 days past due.

AHR informed the auditors that its FFRs were submitted to the Corporation in a timely manner.
Subsequently, according to AHR, the Corporation advised AHR that it identified some
reconciliation issues that required the FFRs to be revised. AHR could not provide written
evidence to confirm when the originals were submitted. When FFR reports are filed late, the
Corporation is unable to monitor AHR’s grant administration and expense activity on a timely
basis, which could adversely affect the program goals and participants’ ability to serve the
program recipients.

Criteria

45 CFR §2543.52(iv), Financial reporting, states,

    “The Federal awarding agency shall require recipients to submit the SF-269 or SF-269A (an
    original and no more than two copies) no later than 30 days after the end of each specified
    reporting period for quarterly and semi-annual reports, and 90 calendar days for annual and
    final reports. Extensions of reporting due dates may be approved by the Federal awarding
    agency upon request of the recipient.”

Recommendations:

We recommend that the Corporation:

    4a. Ensure AHR develops and implements internal controls and procedures to assure that
        all program expenditures recorded on FFRs are reported to the Corporation in a timely
        manner.

    4b. Ensure AHR maintains correspondence and all related documentation to support its FFR
        submissions (including corrected reports) to the Corporation.

AHR’s Response

Both the ED and the CFO stated that the FFRs were not reported late to the Corporation. AHR
provided documentation of issues associated with the Payment Management System where the
Corporation stated that FFR dates within eGrants were not correct. In addition, AHR responded
that it will develop and implement internal controls and procedures to address recommendations
4a and 4b.

Auditor’s Comment

We agree with AHR’s response to implementing internal controls to address recommendations
4a and 4b. We recommend that the Corporation follow up with AHR to ensure these controls
are implemented and properly address the issues noted in this report. Finally, though we agree
that the FFR dates noted were resubmission dates, AHR did not provide any documentation
during our fieldwork or clearly identify the dates when the original FFRs were submitted to the
Corporation.




                                               18
 
 


Auditor’s Crosscutting Observation

We note the unusual phenomenon of receiving separate responses from the grantee’s two most
senior executive officers. The division indicated by their inability to collaborate on a single
response is something that the Corporation should address as it may have implications for
administration of the grants.


                                  OBJECTIVES AND SCOPE


Castro & Company, LLC was retained by the OIG to conduct a performance audit designed to
determine whether AHR expended Corporation-funded Federal assistance in accordance with
applicable requirements, and to report any resulting findings on questioned costs, internal
controls, and compliance with laws and regulations. The audit covered a three-year period from
mid-2008 to mid-2011, during which AHR received a total of $2.23 million under two (2)
Corporation grant awards. Of this amount, AHR reported $2.03 million as claimed costs on its
FFRs.

The audit procedures required Castro to obtain an understanding of AHR and its policies,
procedures and grants. They also included reviewing documents at AHR’s offices related to
volunteer eligibility, claimed costs, matching costs, and compliance with laws, regulations, and
the terms of grant agreements. Our audit procedures included judgmentally selecting samples
to test costs claimed by AHR for compliance with its Corporation grant agreements and other
Federal requirements. The questioned costs detailed in this report are based on this limited
sample; the total costs questioned might have been higher if we had tested all of the
expenditures incurred during the audit period, and we have not projected or estimated the
amounts that would have been questioned had all of the claimed costs been tested. We
conducted our fieldwork at the AHR offices in Atlantic City, New Jersey, from October 8, 2012,
to October 26, 2012.

This audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We note,
however, that, after the conclusion of fieldwork, we learned of an allegation that AHR
misdirected grant funds received from other Federal agencies. None of the allegations related
to the Corporation’s programs. Rather than expanding the scope of this audit, the OIG referred
the matter to its Investigations Section for further inquiry. That investigation may result in
discovery of additional unsupported or improper expenditures in connection with AHR’s
Corporation-funded grants, which could be material.




                                                19
 
 


                                           BAC
                                             CKGROUND
                                                    D

The Corp poration, und der the authority of the National
                                                 N         Commmunity Service Trust A
                                                                                    Act, as amen  nded,
awards grants
         g        and cooperative
                       c           agreements
                                   a               to State co
                                                             ommissions, nonprofit enntities, and ttribes
and territories to assist in the creation
                                   c          of full-
                                                 f     and paart-time natio
                                                                          onal and co
                                                                                    ommunity se  ervice
programs  s. Through these granttees, volunte    eers performm service to o meet educational, hu uman,
environmmental, and public safety needs. Foster F        Granddparents wh ho meet an income-elig gibility
thresholdd related to the poverty y level receiv ve a nomina  al stipend o
                                                                         of $2.65 per service hou ur for
their partticipation; RS
                       SVP volunteeers are not compensate    ed.

AHR wa  as establish hed in 1964  4 as an anti-poverty agency under the Fe         ederal Econ   nomic
Opportunnity Act of 19
                     964. Its mission is to su
                                             upport and sttrengthen co ommunity effforts for plannning
and coorrdinating Federal, State, and local assistance
                                              a          tthat is directted toward tthe elimination of
poverty. It seeks to develop and  d implementt its program
                                                         ms with the m maximum pa   articipation o
                                                                                                 of the
low-incom
        me residents s it serves.

                                        EXIT CONFEREN
                                             C        CE

Becausee of water damage and a resulting loss of ele ctricity susta   ained by the e grantee d during
        e Sandy at the end of October 2012, and dellays associa
Hurricane                                                             ated with the Christmass and
New Yea ar’s holidays
                    s, our exit co
                                 onference did not take pplace until Ja
                                                                      anuary 10, 22013. At the   e exit
conference, we pres sented each of the findinngs set forth
                                                         h in this repo
                                                                      ort. A discusssion draft rreport
was provvided to AHR R and the Corporation.
                                 C             The AHR rresponse wa   as received on April 8, 2013
and is in
        ncluded in the
                    t    appropriiate sections
                                             s of this re port. The C Corporation’s response  e was
received on April 24, 2013. Both sets of co                                       ed in Appendices
                                            omments in ttheir entiretyy are include
C and D,, respectively
                     y.

We note that, althouugh AHR sus  stained subsstantial dam
                                                        mage from S Sandy after tthe conclusion of
audit fieldwork, we do
                     d not believve that storm
                                             m damage a   accounts for the lack o
                                                                                of documenta ation.
To the contrary,
         c        tha
                    at documenta ation was outstanding
                                            o            ssince the be
                                                                     eginning of our fieldwork on
October 8, 2012, and d continued to be outsta           e time the sttorm affected Atlantic City on
                                            anding at the
October 29, 2012, no otwithstandin
                                 ng repeated requests froom the audittors.




Castro & Company, LLC
May 9, 2013




                                                  20
 
                      APPENDIX A
_______________________________________________________________
              SCHEDULE OF QUESTIONED COSTS
                      AWARD 08SFANJ001
               FOSTER GRANDPARENTS GRANT
                                                                                       Appendix A

                            ATLANTIC HUMAN RESOURCES, INC.
                            SCHEDULE OF QUESTIONED COSTS
                              AWARD NO. 08SFANJ001 (FGP)

                                                Questioned Costs
                  Issues                       Federal     Match             Totals        Notes
                                                Costs      Costs
Inadequate Accounting Operations               $240,274    $428,232         $668,506         1
Controls
Missing Eligibility Determination                135,741               -     135,741         2
Lack of Supporting Documentation and
Improper Calculation Method for Payroll          263,565               -    263,565          3
and Fringe Benefits Charges
                    Totals                      $639,580      $428,232     $1,067,812




NOTES:

    1. AHR lacked documentation to support costs incurred for volunteer meals and travel,
       salaries and fringe benefits, and indirect costs ($240,274 Federal, $380,929 Match).
       The grantee also charged the grant for meals that were not provided, and for duplicated
       travel and indirect expenses. In addition, its FFRs did not reconcile to its general ledger.
       ($47,303 Match). (See Finding No. 1)

    2. AHR lacked written evidence to demonstrate that certain volunteers in our testing
       sample were eligible to receive means-tested payments. (See Finding No. 2)

    3. AHR used an incorrect calculation method for the allocation of payroll and fringe benefit
       costs of its grantee staff. In addition, there is no evidence that it conducted the required
       National Service Criminal History and NSOPR Checks for its employees. (See Finding
       No. 3)




 
                       APPENDIX B
_______________________________________________________________
              SCHEDULE OF QUESTIONED COSTS
                      AWARD 08SRANJ009
                         RSVP GRANT
                                                                                   Appendix B

                           ATLANTIC HUMAN RESOURCES, INC.
                           SCHEDULE OF QUESTIONED COSTS
                             AWARD NO. 08SRANJ009 (RSVP)

                                               Questioned Costs
                Issues                       Federal       Match                         Notes
                                              Costs        Costs           Totals
Inadequate Accounting Operations              $ 25,512     $139,618       $165,130         1
Controls
Lack of Supporting Documentation and
Improper Calculation Method for Payroll         203,264               -     203,264        2
and Fringe Benefits Charges
                 Totals                       $ 228,776      $139,618     $368,394




NOTES:

    1. AHR lacked documentation to support costs incurred for volunteer meals and travel,
    salaries and fringe benefits, and indirect costs ($25,512 Federal, $24,872 Match). The
    grantee also charged nonexistent meals, and duplicated travel and indirect expenses to the
    grant. In addition, its FFRs did not reconcile to its accounting system ($114,746 Match).
    (See Finding No. 1)


    2. AHR used an incorrect calculation method for the allocation of payroll and fringe benefit
    costs of its grantee staff. In addition, there is no evidence that it conducted the required
    National Service Criminal History and NSOPR Checks for its employees. (See Finding No.
    3)




 
                      APPENDIX C
_______________________________________________________________
             ATLANTIC HUMAN RESOURCES, INC.
                RESPONSE TO DRAFT REPORT
                          ATLANTIC HUMAN RESOURCES, INC.
                                         One South New York Avenue, Suite 303
                                            Atlantic City, New Jersey 08401
                                        Phone: 609-348-4131IFax: 609-345-5750
                                                  www.atlhmrcs.com


                      Office of Inspector General Corporation for National and Community Service
                        Performance Audit of Corporation for National lind Community Service
                                                   Grants Awarded to
                                             Atlantic Human Resources, Inc.
                                              OIG Report Number 13-XX


 Atlantic Human Resources, Inc. has been a Grantee for the Foster Grandparent Program since 1974 and
 became the Grantee for the Retired and Senior Volunteer Program a few years later.

 During that period we have never experienced the situation we are currently encountering. We regret that
 these programs have been affected in this way because they have been extremely beneficial to the seniors,
 children, non-profit organization and the community at large.

 During our tenure as sponsor we have been audited and monitored each year by a Certified Public
 Accountant and a staff person from the Corporation for National and Community Service as identified
 below.

  GRANT YEAR - FGP                    AUDITOR                             CNCSSTAFF
  09/30/2008-09/29/2009               Lawrence Belcher, Jr.
  09/30/2009-09/2-/2010               Kontrena Clark
  09/3012010-09129/2011               Reznick Group

  GRANT YEAR - RSVP                   AUDITOR                             CNCSSTAFF
  07/0112008 - 06/30/2009             Lawrence Belcher, Jr.
  07/0112009 - 06/30/2010             Kontrena Clark
  07/01/201 0 - 06/30120 11           Reznick Group

 The fmdings and recommendations resulting from                                 report were not issues of
 either the previous auditor or the CNCS staff person.


 Finding 1          NOTE: 1

 AHR's              Volunteer Meals
 Financial          AHR could not provide evidence to support the in-kind match costs that it claimed for
 Management         volunteer meals in its FGP program.
 Reflects
 Pervasive          Executive Director Response:
 Violation of
             The majority of the Foster Grandparent participants are assigned to Public Schools, Day
 Federal Grant
 Management  Care Centers or Head Start Centers. Each of these programs provide meals funded by
 Requirementsthe Child Care and Adult Feeding Programs this program provides breakfast, lunch and
             a pm snack to the children and the Foster Grandparent who are most often required to
             sit with the children to assist them when these meals are served. This is where the
             $4.00 cost per meal was derived and used as in-kind. The supporting documentation
~_ __ _ _ _,--
             w_a_s_a_s-,ig!.J..r:d c!0cument that indicates hours worked meals and travel signed by the


                                                                                                            Page t ofS
                                                                                           I'   ••




volunteer and Program Director submitted to Fiscal for payment. Program staff are
supposed to documents that volunteers were,

a.) at work
b.) used public conveyance to get to the job site and,
c.) did eat a meal or meals while at the site

During the 2011 year to my knowledge only the Atlantic City Board of Education
ceased meal service to volunteers and limited their cash contribution to $10,000. The
commitment to providing meals or pay for travel cost or any other in-kind service is
memorialized in the Memorandum of Understanding with each participating
organization and is documented as outlined above.

Chief Financial Officer Response:

Finding: Charges for meals that were not provided.

Fiscal does not have oversight over program-related matters; vouchers submitted were
                                                                                                     .-.
paid upon request of the Program Director. The CFO has no oversight duties relative to
program management. Comparison of actual and budget expenditures does not reveal
grant compliance requirements.

Finding: 1
NOTE: 2

Volunteer Travel

Executive Director Response:

At the beginning of the volunteer service, volunteers in both programs were required to
select and report to AHR the method of transportation (i.e. New Jersey Transit Bus,
personal car or Atlantic City Jitney, mini bus vehicles)

    ).> New Jersey Transit Bus cost $1.35 per trip for seniors
    ).> Atlantic City Jitney cost $ .75 per trip for seniors
    ).> Auto $1.35 flat charge regardless of mile traveled due to limitations or funding
        available for the activity
    ).> Head Start Bus $1.35 per trip based upon New Jersey Transit fare

Confmnation of such travel was determined by a document signed by the Volunteers,
Program Directors or Site Manager and the document summarized and submitted to
Fiscal for payment again, the submitted document identified hours worked, meal
consumed and travel times. The appropriate rates to obtain the result to be paid to the
volunteer.

Program Staff should have been able to explain the procedure. In summary the MOU
memorializes the contribution of in-kind from the participating site, the time sheet
submitted to the program signed by the Site Manager documents attendance, meals
consumed or travel and is further signed by Program Staff who usually go to each site
to collect these documents and deliver stipend checks.

Chief Financial Officer Response:



                                                                                     Page 2 of8
 Travel expenses were not duplicated. The account chart differentiated between
 Federal travel account #25-40-7516 and grantee travel match #25-41-7516.
 There was an allocation of federal travel expenses to grantee match of
 approximately 47% of the total cost. We are reviewing our ledgers to determine
 if these grantee allocations were drawn down earlier.

Finding 1
NOTE: 3 Indirect Cost Rate

Indirect costs - AHR failed to apply the Indirect Cost Rate correctly.

Executive Directors Response:

These claims made by the OIG Auditors in these years were not substantiated in the
A-133 Audit for the periods; suggesting that the adjustments were made as stated by the
Chief Financial Officer below.

Chief Financial Officer Response:

In a few instances, applicable Indirect Cost Rates for previous years were inadvertently
used, rather than the prevailing Indirect Cost Rates, these. were subsequently adjusted at
yearend.

Finding 1
Note: 4 Indirect Costs

Execntive Director Response:

This claim made by the OIG auditors in these years were not substantiated in the A-133
audit for this period.

Chief Financial Officer Response:

The Corporation for National Services has approved both Direct Cost (Audit fees.
liability, insurances, payroll processing and rent since 2002). (See 2008-2011 approved
awards enclosed)

We now charge only direct cost to the FGP Program and Indirect Cost only to the
RSVP Program.

Finding 1
NoteS

Salaries and Fringe benefits

Executive Directors Response:

This finding was not identified during the A-133 audit for the period. had that occurred
staff could made appropriate adjustments to resolve the matter i.e. have staff reproduce
timesheets and adjust allocations of payroll taxes.




                                                                                      Page 3 of8
                 Finding 1
                 Note 6

                 Reconciliation Differences

                 Executive Director Response:

                 This rmding was not identified during the A-l33 audit for periods, had that occurred
                 staff could have made appropriate adjustments to resolve the matter.


Finding 2        FGP

AHR failed to    Executive Directon Response:
insure that
volunteers met   During the period Ule Iludit reviewed the Foster Grandparent Program . • • • • •
eligibility      ~as Progrdm Direct r                             was the        State
requirements,    site 8udjtor and Lawrence Be            . CPA was the auditor.
including for    program from 9/30/2008 until her resignation in June 28,
receipt of       Kontrena Clark., The Reznick Group nor the CNCS staff
stipends         _       identified any f these i u..:.s utlinw in the!)\!· j mg .
                 ~ the           'cct f r several m nth ' until she was hired as the ircctor.
                 period                          il monitoring these finding were identified aud corrective
                 actions were             upon review of the fwdings. However, the process was slow due
                 to the fact that the project was under staffed. Currently project staff have conducted a
                 me review of all active participants to insure that:

                 Every volunteer meets the eligibility requirements to include

                     ~   Proof of income below the poverty 125% level
                     );> Photo identification documenting individuals birth date
                     ~ The participant has a complete physical examination
                     );> The participant agrees to abide by all requirements of the program
                     ~ The participants file contains a document outlining the volunteers assignment

                  Of the 30 files reviewed by the auditors staff have identified that

                       );>   4 are deceased
                       ~     20 are active
                       ~     6 are no longer in the program
                       ~     AU were income eligible and over 60
                       ~     All active volunteer files now contain all appropriate documents as required



                  AHR could not produce records either electronic or phYliical to demonstrate that it
                  conducted Criminal Background Checks. Project Director                              was
                  terminated on July 19,2012 for cause. At the time of her termination program
                  documentation to include active volunteers and supporting documentation was not
                  retrieved from the Salem County office. And subsequently, staff did not make these
                  documents available to the auditors.




                                                                                                            Page 4 of8
                 volunteers and volunteers stations, locate and review volunteers files and with the
                 assistance of the Executive Director prepare and submit response to monitoring report
                 and resubmit an application for refunding.

                               has been able to complete with these assigned task and is prepared to
                 present same for review (we are presenting same for review).




Finding 3       Background Checks

Required        Executive Directors Response
background
checks were     The program monitoring performed by                  identified this issue.
not conducted   Subsequently, all staff have criminal            Checks on file. J believe that the
on AHR staff    otiginal check on older staff member's files may have been misplaced during the
                changes in AHR staff and office·locations. There were no negative fmdings with the
                background check performed. We request tbatthis disallowed costs totaling $466,829
                be allowed.


Finding 4        Federal Financial Reports
Federal          Executive Directors Response
Financial
Reports Were
Not Submitted
                 I find it difficult to accept that AHR was in fact late for extended periods in
Timely           filing the FFR's as indicated my familiarization with the system suggests that
                 when FFR's are late the grantee is locked out of the PMS System and therefore
                 cannot draw down funds to continue operating until the FFR's is submitted. I
                 have knowledge that the CFO did revise several reports for the FGP operations
                 during the period.

                 Chief Financial Officers Response:

                 Federal Financial reports were reported timely. Please fmd numerous
                 correspondences enclosed ascertaining the veracity of AHR fiscal response.
                 There were a number of factors that contributed to the re-submission of Federal
                 financial reports (FFR's) during the three (3) year cycle. During year two the
                 reporting dates had to be manually ch~ officials in E-grant.
                 AHR submitted an FFR on time, and _ _ _ _ _ attempted to correct
                 the dates, which were wrongly stated but E-grants won't allow the change. The
                 App. ID was #09SF 103190 and corrected dates of AHR reports were as
                 follows:

                 FGP                 Due date    Date submitted Re-subrnitted Date   Comment

                 Year 1 - 3
                 End Mar 31, 2009    4/30/2009     04/30/09     5126/2011            on-time
                 End Sept 30, 2009   10/31109      10/31109     516/2011             on-time



                                                                                                   Page 5 of8
End Mar 31, 2010    4/30/10    4/30/10        5/26/2011        on time
End Sept 30, 2010   10/31110   10/29/10       5/26/2011        on-time

End Mar 31,2011     4/30/11     4/29/11       5/26/2011        on-time
End Sept 30,2011    12/29/11    10/28/11      512612011        on-time

RSVP

Year 1-3
End Sept 30, 2008
End Dec. 31, 2008               01/30/2009   512612011
End June 30, 2009              08/03/2009    512612011
End Dec 31, 2009 1131/10        03/11/2010   5126/2011          late
End June 30, 2010 7/31110      7/29/2010     5/26/2011      on-time/early
End Sept 30,2010   1/31/11      112612011     05126/2011   on-timel early
End June 30, 2011 9/30/11       712912011      5/26/2011    on-time early


Footnote:
CNCS System errors prevented submission of semi-annual reporting, but
Payment management reporting dated for same periods as in CNCSlFGP and
RSVP Reporting shows AHR reports Federal Financial Reports on time. .

AHR accounting procedures prepares PMS and CNCS System FFR'S at the
same time, There were issues dealing with active volunteers and calculation
of Direct Benefit Ratio Requirements for both federal and non-federal
expenditures.

Fiscal officers have relied on the following regulations to comply with project
funding requirements.

2552.92 What are project funding requirements?
2552.93 What are grants management requirements?
CFR 2543 Grants and Agreements with Institutions ofHigher Education,
Hospitals, and Other Non-Profit Organizations, Standards for Financial
Management Systems.

Recommendations

AHR response:
4a & 4b) AHR will develop and implement internal controls and procedures to
assure that all program expenditures recorded on FFR's are reported to the
corporation in a timely manner. Internal Controls at AHR currently are as
follows:


   1) AHR fiscal officers are only allowed to disburse payments as awarded by
      the grant
   2) Grants from September 30, 2008 through September 29,2011, three-year
      cycle of the grant in question were properly disbursed in keeping with
      AHR accounting manual procedures as with all federal and grantee match.
   3) Fiscal is responsible for quarterly and semi-annual reporting based on
      Actual cost incurred, not based on estimates. These costs were pulled
      from AHR GIL as summarized in account detail reports submitted to the

                                                                             Page 60f8
                       reviewers. Federal financial reporting fonns (FFR's) and semi-annual SF
                       269 reporting fonns were then compiled from account detailed reports.
                    4) AHR has distinct separate cash-related responsibilities

                     5) AHR internal controls may have been inadequate and the accounting
                        system proved to be cumbersome but not inconsistent. Volunteer
                        Expenses (federal) were reported correctly, so were Volunteer Expense
                        (non-federal) cumulative expenses.

                     6) The financial management system was changed in May 20 10 to facilitate
                        reconciliation between the GL and FFR reports.

                     7) ONLY CNCSIFGP allowable volunteer federal expenses and volunteer
                        non-federal expenses were reported on the FFR's.

                  09/30/2009 through 03/31/2010
                  04/0112010 through 09/29/2010

                  Payment Management System (PMS) stopped us from drawing down funds
                  because their lllIS system was triggered when CNS system indicated a report
                  was due for 12/3112009.



AHR's Response on FGP Recommendations:
1a.) AHR disagrees with questioned costs totaling $833,636, and will provide hard copies of original
documentation submitted on each FFR to show proof that however inadequate the financial system was
at the time, at no time did AHR fiscal officers manufacture numbers to report to the Federal Government.
FFR's are always pulled from the general ledger in keeping with accounting procedures.

lb.) AHR's accounting personnel have attended Head Start and Early Head Start as well as NJ State
Community Service Block Grant (DCA) fiscal training annually over the last decade. AHR fiscal officers
are familiar with grant accounting operations, and their related internal controls, including the
requirements associated with maintaining an accounting system as a recipient of grant funds. Together
with my deputy, we single handedly migrated and installed a State of the art accounting system
(Financial Edge by Blackbaud) in 2010 that functions better than the twenty year old outdated
(Fundware) accounting system we inherited when we came on board (Robert in 1999) ~in 2001)
respectively. The problem is program coordination, evaluation, monitoring and oversight in its entirety
(not in segments fiscal vs. program), lack of communication and coordination between program
managers and the fiscal officers. Program managers are encouraged to deal directly with the Executive
Director, even on fiscal issues. The Executive director in turn follows up with fiscal on such matters and
Vlce-versa.

lc) AHR will implement procedures to verify that all costs are adequately documented before entering
any costs into the system. This will imply a change in oversight and program monitoring procedures an
the role of fiscal officers in the future.

Id) Fiscal officers will continue to attend grant management and fiscal training to enhance their
knowledge of program requirements


                                                                                               Page 70f8
Ie) Reconciliation between the GL and the FFR's and drawdown's will be conducted periodically.

If) AHR will ensure that drawdown's are necessary, required within 2-3 days and well documented and
supported before reimbursement.

AHR's Response on RSVP Recommendations

2a) No context by fiscal to questioned cost totaling $135,741

3b) AHR's fiscal staff will continue to attend training associated with grant requirements and the proper
way to document its compliance with these requirements.

We look forward to working with to resolve these critical issues. Should you require additional
infonnation regarding this matter, please contact this office.

Sincerely,




                               Financial Officer


JEG/vib

cc:   Board of Directors
      Robert Nartey, Chief Financial Officer

Enclosures




                                                                                              Page 8 of8
                      APPENDIX D
_______________________________________________________________
  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                RESPONSE TO DRAFT REPORT
April 24, 2013



TO :             Stuart Axenfeld
                 Assistant Inspector General for Audit

                 Robert Walters
                 Assistant   Inspect~eral fO~lnV"at~ons
FROM:            David Rebich   )(JJ/UJ
                 Chief Financial Officer

SUBJECT:         Corporation for National & Community Service's (CNCS) comments on the Office of
                 Inspector General (OIG) Supplemental Report on Performance Audit for Grants
                 Awarded to Atlantic Human Resources, Inc. (AHR)



The Corporation has reviewed the initial draft audit, preliminary response from AHR and the
supplemental report for the audit of AHR. As a result of the preliminary findings in the draft audit
report requested by CNCS, CNCS instructed AHR to suspend all operations of their Foster Grandparent
Program (FGP) and RSVP program immediately as of April 17, 2013, upon receipt of the official letter.
We will respond to all findings and recommendations in the draft audit in our management decision
after we receive the final report and the auditor's working papers and complete the audit resolution
process with AHR.

Concerning the supplemental report, while we recognize it is not an audit and did not follow the
collaborative process we are accustomed to in the audit process, we concur with the overall premise
that CNCS should review and look for improvements to our current grant management processes (pre-
award through close-out). However, we do not believe the supplemental report is an accurate
portrayal of the role CNCS' monitoring function played in coming to the decision with this grantee.
The supplemental report (internal document) did not recognize any of the successful efforts of the
CNCS grant monitoring function, acknowledge the results of the monitoring efforts, or acknowledge
the productive working relationship during this engagement. Ensuring the proper management of
taxpayer dollars through strong internal controls is an organizational priority. To that end, CNCS is
undertaking a comprehensive internal control improvement initiative across the organization to
improve our grant management processes, as well as our financial management processes.

In response to CNCS' grant monitoring function in relation to AHR, please consider the following
clarification regarding the agency's role. CNCS believes that the monitoring process and working
relationship among the New Jersey (NJ) State Director, FFMC Grants Specialist and OIG coordinating
staff prior to and during this audit engagement is consistent with existing policies and procedures.
The staffs of each organization engaged in open dialogue and information sharing. At the
management alert briefing in November 2012, the Inspector General acknowledged this partnership
and the execution of the monitoring and referral process. Furthermore, it ultimately resulted in the


                                                   1
outcome expected from CNCS' monitoring function. To that point, CNCS Grant Specialists and/or the
NJ State Director took the following actions regarding the monitoring of the AHR grant:
    •    Identified a pattern of inappropriate management of Federal grant funds through compliance
         monitoring and subsequent desk review (March/April 2012),
    •    Issued a monitoring feedback letter requesting supporting and other documentation from
         AHR (April 9, 2012) Attachment 1,
    •    Reviewed the documentation submitted by AHR and determined that the problems at AHR
         were systemic, thus requiring an in-depth audit by the IG (May 2012),
    •    Notified the IG of AHR's financial and programmatic issues and requested a formal [OIG] audit
         (June 12, 2012) - Attachment 2,
    •    Issued monitoring feedback letter requesting clarification of issues found during CNCS March
         12 monitoring visit - Attachment 3
    • Communicated CNCS' chief concerns regarding AHR to the OIG - Attachment 4,
    •    Placed the RSVP program on manual hold 9/12/2012
    •    Placed a manual hold on the FGP grant due to concerns with AHR management of funds and
         lack of adequate documentation (October 2, 2012),
    •    Issued monitoring feedback letter summarizing and closing out programmatic issues and
         deferring fiscal issues pending the conclusion ofthe OIG audit (October 16, 2012)-
        Attachment 5,
    •   Released the manual hold after AHR provided documentation requested by CNCS (October
        26,2012),
    •   Identified the original anomaly concerning the volunteer checks not being honored due to
        insufficient funds (November 2012),
    •   Notified the sponsor (AHR) immediately,
    •   Followed up contact with a surprise in-person visit on November 15, 2012 to speak with the
        AHR Executive Director (ED) and Chief Financial Officer (CFO) who explained that the bounced
        check was an isolated incident and would not occur in the future,
    •   Issued a follow-up letter on November 27, 2012 to the AHR ED, CFO, and FGP Project
        Director, reinforcing the seriousness of the situation and seeking assurances that it was
        rectified and that any affected grandparents would be compensated for bank fees -- with
        funds independent of the FGP grant. - Attachment 6,
    •   Followed up with the affected grandparent who verified that she had been made whole,
    •   Contacted the ED again in early December regarding the issue after receiving a hard copy
        letter from the affected grandparent, which had been delayed in delivery. The ED of AHR
        provided additional response in writing - Attachment 6,
    •   Notified the OIG of the bounced check issue,
    •   Re-established the manual hold on the FGP program at AHR,
    •   Independent of the OIG's follow-up investigation into the bounced checks, the CSO Director
        discovered that while the specific instance brought to her attention in November had been
        rectified, a number of grandparents continued to have trouble cashing checks (April 1, 2013),
    •   After speaking directly with grandparents and AHR project staff the CSO Director reached out
        to the OIG investigative team to discuss the ongoing issue,
    •   The OIG investigative team confirmed that their investigation had also uncovered the check
        bouncing issues and obtained a full list of affected grandparents from the project staff at AHR
        which he shared with the CNCS Grants Officer upon request,
    •   CNCS issued a letter to AHR on AprilS, 2013 requesting an immediate response - (Response
        Received April 8, 2013) - Attachment 7, and
    •   CNCS issued a Summary Suspension on April 16 requiring AHR to suspend all activity as of
        April 17.

                                                  2
The DIG supplemental report raises concern about CNCS grant monitoring, specifically regarding
action and follow-up on identified AHR grant management issues discovered by CNCS prior to our
findings in MarchiApril 2012. In addition to the actions that we have undertaken, we also agree that
we could have been even more vigilant in our grant monitoring action and follow-up; and if we had
been, we may have taken action earlier than we did. We are addressing these areas for improvement
in our internal control plan by making strong internal controls more prominent in the culture at CNCS,
implementing better risk mitigation assessments prior to grantee award, and increasing our vigilance
in our grant monitoring processes. We look forward to working closely with the DIG to leverage
resources to ensure proper audits are conducted when potential grantee mismanagement of Federal
funds is identified through CNCS grant monitoring processes. We made improvements in our
compliance monitoring process when we provided robust project compliance monitoring training for
all state office staff in 2009, 2010, and 2011. The training agenda and supplemental materials
included case studies, updated tools, and instruction on Generally Accepted Accounting Principles
(GAAP) and Internal Controls. This training strengthened our fiscal grant monitoring which is evident
in the extensive chain of actions identified above and led the Corporation to request this full DIG
audit.

Below are our responses to the recommendations contained in the Summary Report.


51.     The Corporation should review the costs charged by AHR against the FGP and RSVP grants for
the years preceding the audit period to determine whether the irregularities identified in the audit and
investigation reports occurred during those years and, if so, the amounts to be disallowed as a result.

eNes Response:
CNCS will request additional financial information from AHR and determine the best course of action
regarding the years preceding the audit during audit resolution after we receive the final audit and
working papers.



52.      When requiring a manual hold because of indications that a grantee has misdirected Federal
funds, the Corporation should consider whether protection of Federal financial interests counsels in
favor of requiring the grantee to hold Corporation grant funds in an account separate from funds for
unrelated purposes and to make all disbursements related to the grant from that account.

eNes Response:
The Code of Federal Regulations (45 CFR 2543.22 Payment) does not require a grantee to keep
separate accounts. However, CNCS can suggest separate accounts as advantageous and as a best
business practice in this specific case. Business practices in which keeping separate accounts may
prove advantageous are: when automatic payments are being drawn from that account; when legal
reasons require maintaining a separate account, such as when administering a flexible spending
account into which employee deductions are deposited and from which a plan administrator
withdraws funds; when keeping a small number of separate accounts will make bank reconciliations
easier to perform; and finally, when CNCS has evidence that grantees are not able to pay their
members or expending CNCS funds on programs other than CNCS programs. With the exception of
these few cases, CNCS will keep the number of accounts to a minimum. CNCS has long held that the
intent of the regulation is to streamline and ease the burden of the grantees, reducing the number of
bank accounts to a minimum resulting in greater efficiency to the overall cash operation of the


                                                   3
organization. Therefore, CNCS will not direct all grantees to keep separate depository accounts as this
would be in violation of our own regulations.



53,     " The Corporation should perform a comprehensive review of its internal controls over grant
monitoring, including a review of its fiscal monitoring tools and manual hold processes. The review
should be performed by someone independent of FFMC.      II




CNCS Response:
Prior to receiving the Supplemental Report, CNCS was implementing an l8-month risk mitigation
effort to include financial analysis assessments of the grantee in the pre-decision phase for all CNCS
grant-making programs. We have decided to accelerate the effort through a pilot project which will
consider financial analysis in the pre-decision phase of the FY 2013 AmeriCorps State and National
Grantee selection process. CNCS will assess the results of the pilot prior to finalizing the financial
analysis assessment operating procedures moving forward. As part of our ongoing internal control
improvement initiative, CNCS will also analyze our current manual hold implementation and release
processes.

Given these activities, CNCS believes we have already begun initiating the recommendation that, "the
Corporation should perform a comprehensive review of its internal controls over grant monitoring,
including a review of its fiscal monitoring tools and manual hold processes. The review should be
performed by someone independent of FFMC."


Attachments

cc:     Robert Velasco, COO
        Rocco Gaudio Deputy CFO, Director FFMC
        Rosemary DiRita, Grants Management Specialist, FFMC
        Erin McGrath, Director, New Jersey State Program Office
        Claire Moreno, Audit Liaison
        Angela Roberts, Associate Director, Senior Corps
        Margaret Rosenberry, Director, Office of Grant Management
        Dr. Erwin Tan, Director, Senior Corps




                                                   4
